No. 19-1087
IN THE SUPREME COURT OF THE UNITED STATES
_________________
CHARLES M. HALLINAN, PETITIONER
v.
UNITED STATES OF AMERICA
___________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION via email and first-class mail,
postage prepaid, this 26th day of May, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 4943 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on May 26, 2020.

May 26, 2020

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-1087
HALLINAN, CHARLES M.
USA

MICHAEL M. ROSENSAFT
KATTEN MUCHIN ROSENMAN LLP
575 MADISON AVENUE
NEW YORK, NY 10022
212-940-6631
MICHAEL.ROSENSAFT@KATTENLAW.COM
YAAKOV M. ROTH
JONES DAY
51 LOUISIANA AVE., NW
WASHINGTON, DC 20001
202-879-3939
YROTH@JONESDAY.COM

